                                             ENT OF HOMELAN
                                                      Office of Inspector General
                                                  Atlanta Field Office-Audit Division
                                                       3003 Chamblee Tucker Rd
                                                           Atlanta, GA 30341


                                                    November 18,2003




TO:                Kenneth 0 . Burris, Jr.
                      ional Director, FEMA Region IV

FROM:
                   Field Office Director

SUBJECT:           City of Barnesville, Georgia
                   FEMA Disaster No. 1033-DR-GA and 1209 -DR-GA
                   Audit Report No. DA-03-04


The Office of Inspector General (OIG) audited public assistance funds awarded to the
City of Barnesville, Georgia. The objective of the audit was to determine whether the
City accounted for and expended FEMA funds according to federal regulations and
FEMA guidelines.

The City received two separate awards from the Georgia Emergency Management
Agency, a FEMA grantee, to perform emergency work and repair facilities associated
with the City's Eddie Creek Dam and Reservoir. Under Disaster No. 1033, the City
received an award of $3.8 million as a result of Tropical Storm Alberto in July 1994.
This award provided 90 percent funding for four small projects and five large projects'.
Under Disaster No. 1209, the City received an award of $625,7 12 as a result of severe
flooding in March 1998. This award provided 75 percent FEMA funding for two large
projects. The audit was limited to the amount awarded and claimed under the large
projects (see Exhibit).

The audit covered the period July 1994 to June 2000. During this period, the City
received $3,888,078 of FEMA funds for large projects ($3,418,794 under Disaster No.
1033, and $469,284 under Disaster No. 1209).


Notice: This report remains the property of the DHS Office of Inspector General @HS-OIG) at all times and, as such, is not
to be publicly disclosed without the express permission of the DHS-OIG. Requests for copies of this report should be
immediately forwarded to the DHS Office of Counsel to the Inspector General to ensure strict compliance with all applicable
disclosure laws.




1
  FEMA annually adjusts the threshold for a large project. Under Disaster No. 1033, a large project was
$42,400 or more and, under Disaster No. 1209, a large project was $47,100 or more. A small project was
less than these thresholds.
   The contractor provided the City with a "Certification of Liability Insurance"
   showing the required amount of builder's risk insurance on the project. However,
   contrary to Article 4M, the insurance policy did not cover flood damages.

   Thus, the OIG concluded that the contractor, not the City, was legally responsible for
   the cost of emergency protective measures and repairs to the Eddie Creek Dam and
   Reservoir. Federal regulation [44 CFR 206.223(a)(3)] states that, to be eligible for
   assistance, an item of work must be the legal responsibility of an eligible applicant.
   Accordingly, the OIG questions the $625,712 (FEMA share $469,284) awarded and
   claimed.

   City officials acknowledged that the contract required the contractor to maintain flood
   insurance on the project. They also stated that, prior to making the award, FEMA
   determined that the project was not covered by flood insurance. As a result of this
   determination, City officials stated that they did not pursue legal action against the
   contractor. However, at the time of this determination, responsible FEMA program
   officials were not aware of the contractor's responsibility to maintain insurance to
   cover damages during construction of the dam and reservoir.

                                  RECOMMENDATION

The OIG recommends that the Regional Director, in coordination with the grantee,
disallow the $1,035,749 of questioned cost.

         DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW UP

The results of the audit were discussed with FEMA, grantee, and City officials on
October 17,2003. City officials' comments, where appropriate, are included in the body
of the report. However, city officials indicated that they would have to conduct
additional research before indicating whether they concur with the findings.

Please advise the Atlanta Field Office-Audit Division by January 18,2003, of the actions
taken to implement the recommendation. Should you have any questions concerning this
report, please contact George Peoples or me at (770) 220-5242.
                                                                   Exhibit

                 Citv of Barnesville, Georgia
          FEMA Disaster Nos. 1033 & 1209 - DR-GA
           Schedule of Claimed and Questioned Costs

                      Disaster No. 1033

Project     Amount               Amount                Amount
Number      Awarded              Claimed              Questioned




                       Disaster No. 1209
The OIG performed the audits under the authority of the Inspector General Act of 1978,
as amended, and according to generally accepted government auditing standards. The
audit included tests of the City's accounting records, a judgmental sample of
expenditures, and other procedures considered necessary under the circumstances.


                                  RESULTS OF AUDIT

The City's claim included $1,035,749 of questioned cost. This consists of $410,037 of
excessive charges for engineering services under Disaster No. 1033, and $625,712 of
ineligible repair costs under Disaster No. 1209 that was not the legal responsibility of the
City.

A. Excessive Engineering Charges. Under Disaster No.1033, FEMA awarded
   $2,958,809 under "Improved Project 92333" to repair the Eddie Creek Dam and
   Reservoir. According to FEMA regulation in 44 CFR 206.203(d), an improved
   project exists when an applicant, with FEMA approval, makes improvements to a
   damaged facility, but still restores the pre-disaster functions of the facility. Under
   such projects, FEMA funding is limited to the estimated costs to restore the facility to
   its pre-disaster condition.

   In malung the award, FEMA provided funds for construction and engineering
   services. Moreover, consistent with 44 CFR 206.203 (d), FEMA informed the City,
   in July 1997, that no additional funding would be provided to construct the dam and
   reservoir. However, on May 11,2001, FEMA mistakenly awarded, under Project
   79626, additional engineering fees of $410,037 for the construction project. FEMA
   Region IV officials agreed that the project was awarded in error. Accordingly, the
   OIG questions the $410,037 (FEMA share-$369,033) awarded and claimed under the
   project.

B. Ineligible Repair Cost. Under Disaster No. 1209, the City again received funding to
   repair the Eddie Creek Dam and Reservoir--$625,712 for emergency and permanent
   restoration work. This consisted of $83,666 to build a temporary "cofferdam" around
   the reservoir and $542,046 to replace the soil and "riprap" swept from the dam as a
   result of the March 1998 floods. At the time of these floods, the facility was still
   being constructed under the FEMA "improved project" funded under Disaster No.
   1033.

    The OIG determined that the City's dam construction contract, under Disaster No.
    1033, required the contractor to obtain and maintain insurance during construction to
    cover the costs of damages caused by nature disasters, including floods. Specifically,
    Article 4M of the contract states:

           The contractor shall obtain and maintain in force builder's risk
           insurance covering damages to the project, during construction, as a'
           result of rains, floods, earthquakes, and other "acts of god" on one
           hundred percent (100%) of the completed value basis of the project
           with a minimum excess (umbrella) coverage of $5,000,000.
